HHS/OIG, Audit - "Review of Medicaid Credit Balances at
Baystate Franklin Medical Center for the Period Ending June 30, 2006,"
(A-01-07-00002)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Credit
Balances at Baystate Franklin Medical Center for the Period Ending June 30, 2006," (A-01-07-00002)
July 11, 2007
Complete Text of Report is available in PDF format (274 kb).
Copies can also be obtained by contacting the Office of Public Affairs at
202-619-1343.
EXECUTIVE SUMMARY:
Our objective
was to determine whether the credit balances recorded in Baystate Franklin
Medical Centers (the Hospital) accounting records for inpatient and outpatient
services for Medicaid beneficiaries represented overpayments more than 60 days
old that the Hospital should have returned to the Medicaid program.  We
identified 306 overpayments more than 60 days old that the Hospital should have
returned to the Medicaid program.  As a result, the Hospital did not promptly
return Medicaid overpayments totaling $80,272 ($40,136 Federal share) to the
Medicaid program in accordance with State Medicaid requirements.  We recommended
that the Hospital return to the Massachusetts Medicaid program overpayments
totaling $80,272 ($40,136 Federal share) and continue efforts to identify and
return all overpayments to Medicaid in accordance with State requirements.
The Hospital agreed substantially with our
observations and findings.